No. 19A
19A___
IIN
N THE
THE

'upreme
Court of
of the
Supreme Court
the liniteb
United iptato
States
MALWAREBYTES, INC.,
INC.,
MALWAREBYTES,
Applicant,
v.
ENIGMA
ENIGMA SOFTWARE
SOFTWARE G
ROUP USA, LLC,
GROUP
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

N
EAL KUMAR
KUMAR K
ATYAL
NEAL
KATYAL
Counsel of Record
BENJAMIN
FIELD
BENJAMIN A. F
IELD
R
EEDY C. S
WANSON
REEDY
SWANSON
HOGAN L
OVELLS US LLP
LOVELLS
HOGAN
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com
March 6, 2020

Counsel for Applicant

APPLICATION
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C. § 2101(c), applicant Malwarebytes, Inc. respectfully requests a 40-day extension of time, to and
including May 11, 2020,
2020,11 within which to file a petition for a writ of certiorari to review the judgment of the United States Court of Appeals for the Ninth Circuit in
respondent’s counsel, who has indicated that Rethis case. Applicant has consulted respondent's
spondent consents to this request.
1.
1.

The United States District Court for the Northern District of Califor-

nia entered its opinion dismissing the complaint against Malwarebytes on November 7, 2017 (Appendix A). The United States Court of Appeals for the Ninth Circuit
issued its opinion in this case on September 12, 2019, 938 F.3d 1026 (Appendix B).
Malwarebytes sought rehearing, which the court denied after modifying its opinion
on December 31, 2019, 946 F.3d 1040 (Appendix C). Unless extended, the time to
file a petition for certiorari in this Court will expire on March 30, 2020. This application is being filed more than ten days before the petition is currently due. See
Sup. Ct. R. 13.5. The jurisdiction of this Court will be invoked under 28 U.S.C.
§ 1254(1).
2.
2.

In Section 230 of the Communications Decency Act (CDA), Congress

enacted a system of self-regulation for the Internet by immunizing providers of fil1

1 The

fortieth day falls on Saturday, May 9, meaning the due date would be the following
Monday in accordance with Rule 30.1.

1
1

tering technology from lawsuits, thereby encouraging the development of tools that
would allow users to control the content they are exposed to. 47 U.S.C. § 230(c)(2).
In the divided panel opinion below, the Ninth Circuit fashioned an exception to that
immunity without identifying any basis for that exception in the text of the statute.
App’x C 18. Its approach to Section 230 differs from that of several other courts,
See App'x
including those of California.
3.
3.

Malwarebytes is a security company that develops software empower-

ing users to protect themselves from the vast array of threats on the Internet. See
App'x
App’x C 11. Employing its experience and judgment, in October 2016, Malwarebytes began classifying certain products of plaintiff Enigma Software Group as Po(“PUPs”)—that is, programs that try to deceive users
tentially Unwanted Programs ("PUPs")—that
into thinking something is wrong with their computer to induce them to purchase a
paid version of the PUP. Id. at 11-12. As with any PUP, Malwarebytes’
Malwarebytes' software
notified users of the potential risk and gave them a choice whether to continue using the Enigma product. Id.
4.
4.

Enigma sued Malwarebytes, alleging various business torts and unfair

advertising in violation of the Lanham Act. Malwarebytes moved to dismiss, invok“provider or user of an interactive coming the CDA’s
CDA's immunity from suit for any "provider
puter service"
service” that takes "any
“any action to enable or make available * * * the technical
means to restrict access to"
to” "material
“material that the provider or user considers to be obobjectionable.” 47 U.S.C. § 230(c)(2) (emphases
scene, * * * harassing, or otherwise objectionable."
added). Enigma opposed the motion. According to Enigma, Malwarebytes'
Malwarebytes’ true mo-

2

tivation was to stop consumers from using Enigma’s
Enigma's products, which allegedly competed directly with Malwarebytes. See App'x
App’x C 12-13. Enigma urged the court to
reject immunity under such circumstances.
5.
5.

Malwarebytes’ motion to dismiss.
The District Court granted Malwarebytes'

App’x A 7. The court recognized that there was no motive-based exception to imApp'x
munity for providers of filtering technology in the text of Section 230. See id. at 5.
That omission is particularly telling given that the adjacent provision, which concerns entities that block content directly rather than leaving the choice to users,
“good faith"
faith” requirement for immunity. Id. (comparing 47 U.S.C.
does contain a "good
“assume[d] that Congress acted
§ 230(c)(2)(A) with § 230(c)(2)(B)). Thus, the court "assume[d]
intentionally when it decided to include a good-faith requirement in subsection (A)
(B).” Id. (citing Connecticut National Bank v. Germain, 503 U.S. 249,
but not in (B)."
253-254 (1992)).

The court therefore rejected Enigma’s
Enigma's contention that Section

230(c)(2)(B)’s immunity contains an unstated exception for supposedly "anticompet“anticompet230(c)(2)(B)'s
itive"
itive” conduct. See id. at 5-6.
6.
6.

In a divided decision, the Ninth Circuit reversed. See App'x
App’x C 25-27.

The majority held that the "CDA's
“CDA’s history and purpose”
purpose" implied an exception to the
statute’s immunity when a plaintiff alleges that a provider has acted with "anti“antistatute's
statute’s text incompetitive motives.”
motives." Id. at 18. The panel acknowledged that the statute's
“broad grant"
grant” of immunity but expressed concern that this text no longer
volved a "broad
adequately served "the
“the statute's
statute’s express policies,”
policies," codified in subsections (a) and (b)
“that if a provider’s
of the Act. Id. at 19. That led the court to conclude "that
provider's basis for ob-

3

jecting to and seeking to block materials is because those materials benefit a competitor, the objection would not”
21.2
not" be covered by the statutory immunity. Id. at 21.2
7.
7.

Judge Rawlinson dissented. She emphasized that there was no basis

“broadly worded Communications Decency Act"
Act” for the majority’s
in the "broadly
majority's newly“The majority’s
fashioned exception. Id. at 26 (internal quotation marks omitted). "The
majority's
complaint,” she continued, "is
“is not that the district court construed the statute
real complaint,"
broadly.” Id. Such a defect "is
“is one
too broadly, but that the statute is written too broadly."
beyond [the court's]
court’s] authority to correct."
correct.” Id.
8.
8.

Malwarebytes sought rehearing. In response, the panel withdrew its

original opinion and replaced a sentence suggesting a suit may be brought anytime
a filtration decision rests on the identity of the speaker—not just when the decision
App’x B 10, with App'x
App’x C 11.
had an allegedly anticompetitive motive. Compare App'x
The panel otherwise made no changes to its result or reasoning, and the en banc
App’x C 4-5. Judge Rawlinson again dissentcourt declined to rehear the case. See App'x
ed and indicated that she would have granted rehearing en banc. Id. at 4, 26-27.
9.
9.

The decision below defies elementary principles of statutory interpre-

tation long articulated by this Court. The Ninth Circuit divined an exception to
230’s immunity by relying exclusively on its views of the relevant policy
Section 230's
considerations, unmoored from the text Congress enacted.

Id. at 18-19.

This

Court’s
Court's precedents forbid that approach. See e.g., Central Bank of Denver, N.A. v.

2

The Ninth Circuit also held that Enigma’s
Enigma's false-advertising claims do not fall
“intellectual property”
App’x C
property" claims. App'x
within the CDA’s
CDA's exception to immunity for "intellectual
22-25. Malwarebytes does not plan to seek review of that issue.
2

4

(“[p]olicy consideraFirst Interstate Bank of Denver, N.A., 511 U.S. 164, 188 (1994) ("[p]olicy
Act”). The
tions cannot * * * override interpretation of the text and structure of [an] Act").
Ninth Circuit’s
Circuit's treatment of Section 230 also breaks with several other courts, including those of California, the largest State in that circuit. See, e.g., Pallorium,
Inc. v. Jared, No. G036124, 2007 WL 80955, at *7 (Cal Ct. App. Jan. 11, 2007);
Prager Univ. v. Google, LLC, No. 19-CV-340667, slip op. at 4 (Cal. Sup. Ct. Santa
Clara Cty. Nov. 19, 2019), appeal docketed No. H047714 (Cal. Ct. App. 6th Dist.
Dec. 19, 2019). The result threatens to replace the system of self-regulation that
Congress enacted with judicial micromanagement of the Internet. This Court’s
Court's review is warranted to bring the Ninth Circuit back into line on this important federal
question.
10.
10.

Malwarebytes has retained Neal Kumar Katyal of Hogan Lovells US

LLP as counsel to file a petition for writ of certiorari. Over the next several weeks,
counsel is occupied with briefing deadlines and argument for a variety of matters,
including: (a) a brief in opposition to certiorari in K.G.S. v. Facebook, Inc., No. 19910 (U.S.), due March 23; (b) a reply brief in support of certiorari in Credit Bureau
Center, LLC v. Federal Trade Commission, No. 19-914 (U.S.), due April 6; (c) a reply
brief on the merits in Ford v. Bandemer, No. 19-369 (U.S.) and Ford v. Montana
Eighth Judicial District, No. 19-368 (U.S.), due approximately April 17, with argument to follow on April 27; and (d) a reply brief in support of certiorari in Waggy v.
United States, No. 19-7544, due April 22. Applicant requests this extension of time
to permit counsel to research the relevant legal and factual issues and to prepare a

5

petition that fully addresses the important questions raised by the proceedings below.
For these reasons, Applicant respectfully requests that an order be entered
extending the time to file a petition for certiorari to and including May 11, 2020.
Respectfully submitted,

7ked Acztr-e / 46
NEAL KUMAR KATYAL
Counsel of Record
BENJAMIN A. FIELD
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com
March 6, 2020

Counsel for Applicant

6

